U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Flynn v. United States, No. 20-1129
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 11,
2021. The government’s response is now due, after one extension, on April 19, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 19, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1129
FLYNN, SCOTT PHILLIP
USA

IAN M. COMISKY
FOX ROTHSCHILD LLP
2000 MARKET STREET
20TH FLOOR
PHILADELPHIA, PA 19103
215-299-2000
ICOMISKY@FOXROTHSCHILD.COM
HARRY SANDICK
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
212-336-2000
HSANDICK@PBWT.COM
JEREMY H. TEMKIN
MORVILLO ABRAMOWITZ GRAND IASON &
ANELLO P.C.
565 FIFTH AVENUE
NEW YORK, NY 10017
212-880-9470
JTEMKIN@MAGLAW.COM
212-856-9494(Fax)

